Wiggin and Dana LLP
20 Church Street
Hartford, Connecticut
06103
www.wiggin.com

Robert M. Langer
860.297.3724
rlanger@wiggin.com

December 13, 2019
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Connecticut Fine Wine and Spirits, LLC, dba Total Wine & More, Petitioner, v.
Commissioner Michelle H. Seagull, et al., Respondents, Wine & Spirits
Wholesalers of Connecticut, Inc., et al., Intervenors-Respondents. No. 19-710

Dear Mr. Harris:
I represent Intervenor–Respondent Wine & Spirits Wholesalers of Connecticut, Inc. in
the above-captioned case. I also write on behalf of counsel for Intervenor–Respondents
Brescome Barton, Inc., Connecticut Beer Wholesalers Association, Inc., Connecticut
Restaurant Association, and Connecticut Package Stores Association, Inc.
A petition for a writ of certiorari in the above-captioned case was placed on the docket
on December 4, 2019. I respectfully request, under Rule 30.4 of the Rules of this Court,
a sixty-day extension of time, up to and including March 3, 2020, in which to file a brief
in opposition on behalf of the above-mentioned Intervenor–Respondents, which would
otherwise be due on January 3, 2020.
A sixty-day extension of time is necessary to ensure sufficient time for counsel to fully
analyze the arguments raised in the petition and coordinate a unified response on
behalf of all intervenor–respondents. It is also necessary in light of upcoming holidays
and competing previously scheduled deadlines in state and federal courts. An
extension of time may be necessary to address the arguments made in anticipated
amicus curiae briefs, which are due on January 3, 2020. Finally, to the extent the Court
grants the request of Respondents, Commissioner of the Connecticut Department of
Consumer Protection, Michelle H. Seagull (Seagull”), and Director of the Connecticut
Division of Liquor Control, John Suchy (“Suchy”), for a sixty-day extension of time, filed
December 11, 2019, granting this request on behalf of Intervenor–Respondents would
align the deadlines for all briefs in opposition to certiorari.

C O N N E C T I C U T I N E W Y O R K I P H I L A D E L P H I A I WA S H I N G TO N , D C I PA L M B E A C H

December 13, 2019
Page -2-

Counsel for Petitioner has consented to this sixty-day extension of time, and to the
identical request made by Respondents Seagull and Suchy.
Thank you for your consideration of this request.
Respectfully,
/s/ Robert M. Langer___
Robert M. Langer
RML:lm

